No. 19-543
In the

Supreme Court of the United States
__________________

JEFFREY WILLS LUSK, INDIVIDUALLY
AND AS EXECUTOR OF THE ESTATE OF
DOROTHY JEAN ROSS LUSK, DECEASED,
Petitioner,
v.
CROWN POINTE CARE CENTER, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
Court of Appeals of Ohio, Franklin County

__________________
Brief in Opposition for Respondents Central Ohio
Hospitalists, Inc. dba MedOne Physicians, Daniel
L. Miller, M.D and Brian K. Pulliam, C.N.P.
__________________
Frederick A. Sewards
Counsel of Record
POLING LAW
300 E. Broad St., Ste. 350
Columbus, OH 43215
(614) 737-2900
fsewards@poling-law.com
Counsel for Respondents Central Ohio
Hospitalists, Inc. dba MedOne
Physicians, Daniel L. Miller, M.D and
Brian K. Pulliam, C.N.P.
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether a federal question sufficient to confer
jurisdiction on this court pursuant to 28 U.S.C. §1257
is generated in a case that was decided upon state law
principles that addressed the authority of a pro se
executor to represent an estate in a wrongful death
action where other statutory beneficiaries exist.
2. Whether 28 U.S.C. §1654 permits a pro se
executor to self-represent an estate with other
statutory beneficiaries in a state court wrongful death
action that is predicated entirely upon state law.
3. Whether a state court judgment that is based
entirely on principles of state law governing the
unauthorized practice of law presents adequate state
grounds where the petitioner claims a right of selfrepresentation under 28 U.S.C. §1654.

ii
RULE 29.6 STATEMENT
Central Ohio Hospitalists, Inc., dba MedOne
Hospital Physicians, is a privately-held corporation
that is not publicly traded.
No publicly heldcorporation owns 10% or more of the stock of Central
Ohio Hospitalists, Inc.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
REASONS FOR DENYING THE WRIT . . . . . . . . . . 4
I.

This Court lacks subject matter jurisdiction.
..................................... 4
A. 28 U.S.C. §1654 has no application in a
wrongful death action that is brought in
state court. . . . . . . . . . . . . . . . . . . . . . . . . . 6

II.

28 U.S.C. §1654 does not permit an executor
of an estate with multiple beneficiaries to
proceed pro se . . . . . . . . . . . . . . . . . . . . . . . . . 8

III.

The decision of the Supreme Court of Ohio
rests on adequate state grounds that
preclude granting of the petition for writ of
certiorari. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

iv
APPENDIX
Appendix 1 Complaint in the Court of Common
Pleas of Franklin County, Ohio
(April 6, 2018) . . . . . . . . . . . . . . . . App. 1
Appendix 2 Plaintiff’s Objections to 10 July 2018
Court Decision in the Court of
Common Pleas of Franklin County,
Ohio
(July 11, 2018) . . . . . . . . . . . . . . App. 14

v
TABLE OF AUTHORITIES
CASES
Bass v. Leatherwood,
788 F.3d 228 (6 th Cir. 2015) . . . . . . . . . . . . . . 9, 10
Cheung v. Youth Orchestra Foundation of Buffalo,
Inc.,
906 F.2d 59 (2d Cir. 1990) . . . . . . . . . . . . . . . . . . 8
Coleman v. Thompson,
501 U.S. 722 (1991). . . . . . . . . . . . . . . . . . . . . . . 13
Eagle Associates v. Bank of Montreal,
926 F.2d 1305 (2d Cir. 1991) . . . . . . . . . . . . . . . . 8
Faretta v. California,
422 U.S. 806 (1975). . . . . . . . . . . . . . . . . . . . . . . . 7
Fox Film Corp. v. Muller,
296 U.S. 207 (1935). . . . . . . . . . . . . . . . . . . . . . . 13
Guest v. Hansen,
603 F.3d 15 (2d Cir. 2010) . . . . . . . . . . . . . . . . . 11
Home Depot U.S.A, Inc. v. Jackson,
____ U.S. ____, 139 S. Ct. 1743 (2019) . . . . . . . . . 4
Iannaccone v. Law,
142 F.3d 553 (2d Cir. 1998) . . . . . . . . . . . . . . . . . 8
Jones ex rel. Jones v. Correctional Medical Services,
Inc.,
401 F.3d 950 (8 th Cir. 2005) . . . . . . . . . . . . . . . . 10
Jones v. Niagara Frontier Transportation Auth.,
722 F.2d 20 (2d Cir. 1983) . . . . . . . . . . . . . . . . . 12

vi
Kokkonen v. Guardian Life Ins. Co. of America,
511 U.S. 375 (1994). . . . . . . . . . . . . . . . . . . . . . . . 4
Machadio v. Apfel,
276 F.3d 103 (2d Cir. 2002) . . . . . . . . . . . . . . . . . 8
National Independent Theatre Exhibitors, Inc. v.
Buena Vista Distribution Co.,
748 F.2d 602 (11 th Cir. 1984) . . . . . . . . . . . . . . . . 8
Pridgen v. Andresen,
113 F.3d 391 (2d Cir. 1997) . . . . . . . . . . . . . . 9, 10
Rodgers v. Lancaster Police and Fire Dept.,
819 F.3d 205 (5 th Cir. 2016) . . . . . . . . . . . . . . . . 11
Rowland v. California Men’s Colony,
506 U.S. 194 (1993). . . . . . . . . . . . . . . . . . . . . . 3, 7
Shepherd v. Wellman,
313 F.3d 963 (6 th Cir. 2002) . . . . . . . . . . . . . . . . 10
Simon v. Hartford Life, Inc.,
546 F.3d 661 (9 th Cir. 2008) . . . . . . . . . . . . . . . 3, 7
Sperry v. Florida ex rel. Florida Bar,
373 U.S. 379 (1963). . . . . . . . . . . . . . . . . . . . . . . . 6
Winkelman ex rel. Winkelman v. Parma City School
Dist.,
550 U.S. 516 (2007). . . . . . . . . . . . . . . . . . . . . . . . 7
STATUTES AND RULES
Federal
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. §1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 4

vii
28 U.S.C. §1654 . . . . . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. §1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Supreme Court Rule 10 . . . . . . . . . . . . . . . . . . . . . 4, 5
Supreme Court Rule 15.2. . . . . . . . . . . . . . . . . . . . . . 3
State
Ohio Revised Code §2125.02 . . . . . . . . . . . . . . . . . . . 9
Ohio Revised Code §4705.01 . . . . . . . . . . . . . . . . 2, 13
Other
Model Code of Professional Responsibility, DR 7102 (A) (1&2) (1976) . . . . . . . . . . . . . . . . . . . . . . 12

1
JURISDICTION
There is no basis for subject matter jurisdiction in
this court. The federal or constitutional issue required
for jurisdiction pursuant to 28 U.S.C. §1257 is absent
from this case, as the statute relied upon by the
plaintiff, 28 U.S.C. §1654, has no applicability to state
court litigants. The decisions of the Ohio Tenth
District Court of Appeals and the Supreme Court of
Ohio involved only issues of state law that do not confer
jurisdiction on this court.
28 U.S.C. §1254(1), cited by the petitioner as the
basis for jurisdiction in this court, applies only to cases
that are venued in the federal circuit courts of appeal.
It confers no jurisdiction on this court to hear a state
court matter that does not involve any federal or
constitutional question.
STATEMENT OF THE CASE
On April 5, 2016, Ms. Dorothy J. Lusk, the mother
of petitioner Jeffrey Wills Lusk and a resident of
Crowne Point Care Center in Columbus, Ohio, fell and
sustained injuries that allegedly resulted in her death
on April 11, 2016 at the age of 96 years. Resp. App. 6-7.
At the time of her death, Ms. Lusk was survived by two
adult children, including petitioner Jeffrey Wills Lusk,
who was subsequently appointed as Executor of her
estate by the Probate Court of Franklin County, Ohio.
Ibid., 4, 7.
On April 6, 2018 petitioner Lusk, acting in a pro se
capacity individually and as the Executor of the Estate
of Dorothy J. Lusk, filed a complaint in the Court of
Common Pleas of Franklin County, Ohio, seeking

2
wrongful death and survival action damages. Resp.
App. 1-13. Although the complaint contained vague
and rambling allegations of “violation of Ohio and
Federal laws governing care of the elderly,” Ibid., 9, the
gist of the action was a medical malpractice case
arising from treatment afforded to the mother of the
petitioner. No specific “[F]ederal laws governing care
of the elderly” were identified in the complaint or in
any subsequent proceedings in the state courts of Ohio.
Respondents filed a motion to dismiss under state
law, contending, inter alia, that the petitioner, who is
not an attorney admitted to the bar of any jurisdiction,
was engaged in the unauthorized practice of law in
violation of §4705.01 of the Ohio Revised Code. The
trial court sustained the motion, and the petitioner
lodged an appeal with the Tenth District Court of
Appeals of Ohio. The day after the appeal was filed on
July 10, 2018, the petitioner filed a document titled
“Plaintiff’s Objections to 10 July 2018 Court Decision,”
which for the first time in the case asserted 28 U.S.C.
§1654 as grounds for pro se representation of an estate.
The objections were never ruled upon by the trial court,
since jurisdiction of the case had transferred to the
court of appeals.
The Tenth District dismissed the appeal on April 9,
2019, finding that the petitioner, as a non-lawyer, was
prohibited by R.C. §4705.01 from pro se representation
of the estate of his deceased mother. Pet. App. 20. The
decision of the court was based entirely on state law
grounds, specifically the prohibition against the
unauthorized practice of law and the requirement in
Ohio that wrongful death actions must be brought by

3
the personal representative of the estate for the benefit
of next of kin of the decedent. On September 17, 2019
the Supreme Court of Ohio declined discretionary
jurisdiction. Pet. App. 28.
Pursuant to the obligation set forth in Supreme
Court Rule 15.2 to address any misstatement of fact or
law in the petition, the respondents identify the
following:
• Contrary to statements made by the petitioner,
he is not the sole beneficiary of the estate of his
deceased mother. As observed by the state
appellate court, “While Lusk is one of the
decedent’s next of kin, he is not her only next of
kin, as he has a sister, and representing the
interests of his sister would constitute the
unauthorized practice of law.” Pet. App. 14. The
sister of the petitioner is identified in the
original state court complaint as Barbara
Elizabeth Lusk Proctor. Resp. App. 7.
• 28 U.S.C. §1654 does not, as claimed by
petitioner, confer a federal right of selfrepresentation in the state courts of Ohio. The
application of 28 U.S.C. 1654 is limited to
actions that are commenced in the federal
judicial system. Rowland v. California Men’s
Colony, 506 U.S. 194 (1993); Simon v. Hartford
Life, Inc., 546 F.3d 661 (9th Cir. 2008). The case
before this court was, at all times prior to the
filing of the petition for writ of certiorari,
situated in the state courts of Ohio. Accordingly,
the jurisdictional statement contained in the
petition is incorrect.

4
REASONS FOR DENYING THE WRIT
I.

This
Court
jurisdiction.

lacks

subject

matter

It is well-settled in American jurisprudence that the
federal judicial system is comprised of courts whose
subject matter jurisdiction is limited. “We have often
explained that ‘[f]ederal courts are courts of limited
jurisdiction.’ ” Home Depot, U.S.A., Inc. v. Jackson,
____ U.S. _____, 139 S. Ct. 1743 (2019), citing Kokkonen
v. Guardian Life Ins. Co. of America, 511 US 375, 377
(1994). The Supreme Court of the United States is not
an exception to this rule of law, and its jurisdictional
limitations for judgments rendered by state courts are
set forth in 28 U.S.C. §1257:
Final judgments or decrees rendered by the
highest court of a State in which a decision could
be had, may be reviewed by the Supreme Court
by writ of certiorari where the validity of a
treaty or statute of the United States is drawn
in question or where the validity of a statute of
any State is drawn in question on the ground of
its being repugnant to the Constitution, treaties,
or laws of the United States, or where any title,
right, privilege or immunity is specially set up or
claimed under the Constitution or the treaties or
statutes of, or any commission held or authority
exercised under, the United States.
28 U.S.C. §1257. The statute is echoed by Rule 10 of
the Rules of The Supreme Court of the United States,
which provides guidance for the types of cases that will
warrant granting review on a writ of certiorari:

5
Review on a writ of certiorari is not a matter of
right, but of judicial discretion. A petition for a
writ of certiorari will be granted only for
compelling reasons. The following, although
neither controlling nor fully measuring the
Court’s discretion, indicate the character of the
reasons the Court considers:
...
• (b) a state court of last resort has decided
an important federal question in a way
that conflicts with the decision of another
state court of last resort or of a United
States court of appeals;
• (c) a state court or a United States court
of appeals has decided an important
question of federal law that has not been,
but should be, settled by this Court, or
has decided an important federal question
in a way that conflicts with relevant
decisions of this Court.
None of the considerations expressed in Rule 10 are
present in this case, nor are any federal or
constitutional law questions or issues involved. The
decisions of the courts of Ohio were based strictly on
application of state law principles governing the
unauthorized practice of law, and the required
jurisdictional element of a federal issue or question is
missing from this case. For that reason, the petition for
writ of certiorari should be denied.

6
A. 28 U.S.C. §1654 has no application in a
wrongful death action that is brought in
state court.
Relying upon 28 U.S.C. §1654, the petitioner urges
this court to grant review of this case on the grounds of
a perceived conflict between the Ohio Tenth District
Court of Appeals and several federal circuit courts of
appeal. Apparently believing that 28 U.S.C. §1654
grants the right of self-representation in all cases in all
courts, state and federal, the petitioner urges this court
to grant review on the grounds that “It only remains for
the Supreme Court of the United States to make the
U.S. Courts of Appeal’s rulings cited above the
standard of review for all U.S. courts to eliminate the
existing conflict between the Tenth District Court of
Appeals for Ohio and the U.S. Court of Appeals for the
Second, Fifth, and Sixth Circuits.” Petition for Writ of
Certiorari, p. 4. Apparently, the petitioner desires that
this Court create a nationwide standard that regulates
the practice of law in all fifty states, an area that has
been recognized by this Court as within the legitimate
authority of the states. See Sperry v. Florida ex rel.
Florida Bar, 373 U.S. 379 (1963). The argument of the
petitioner is based upon a fundamental misapplication
of 28 U.S.C. §1654, which, contrary to his assertions,
does not “guarantee” the right of a pro se executor to
represent an estate in state court.
28 U.S.C. §1654 states “In all courts of the United
States the parties may plead and conduct their own
cases personally or by counsel as, by the rules of such
courts, respectively, are permitted to manage and
conduct causes therein.”
The statute has no

7
application to proceedings lodged in state court, but
applies only to the federal judicial system. See Faretta
v. California, 422 U.S. 806 (1975) “In the federal
courts, the right of self-representation has been
protected by statute since the beginnings of our
Nation.” 422 U.S. at 812.; Winkleman ex rel.
Winkelman v. Parma City School Dist, 550 U.S. 516
(2007) “. . . [F]or there is no question that a party may
represent his or her own interest in federal court
without the aid of counsel.” See 28 U.S.C. §1654. . .”)
550 U.S. at 522; See also Rowland v. California Men’s
Colony, 506 U.S. 194 (1993) where this Court stated
that “Thus, save in a few aberrant cases, the lower
courts have uniformly held that 28 U.S.C. §1654,
providing that ‘parties may plead and conduct their
own cases personally or by counsel,’ does not allow
corporations, partnerships, or associations to appear in
federal court otherwise than through a licensed
attorney.” 506 U.S. at 202 (Citations omitted.); Simon
v. Hartford Life, Inc., 546 F.3d 661 (9th Cir. 2008) “The
general rule establishing the right of an individual to
represent oneself in all federal courts of the United
States is contained in 28 U.S.C. §1654.” 546 F.3d at
664. Thus, in civil cases such as the matter sub judice
that are brought in state courts, 28 U.S.C. §1654 has
no applicability and cannot confer federal subject
matter jurisdiction on this Court.

8
II.

28 U.S.C. §1654 does not permit an executor
of an estate with multiple beneficiaries to
proceed pro se

Contrary to the assertions of the petitioner, in any
event 28 U.S.C. §1654 does not permit prosecution of
wrongful death claims by a pro se executor of an estate
with multiple beneficiaries. The statute has never been
construed by the federal courts as conferring an
unfettered right to appear as a pro se party in any case,
but rather is limited to interests that are personal to
the litigant. Iannaccone v. Law, 142 F.3d 553 (2d Cir.
1998). Accordingly, the federal courts have consistently
forbidden pro se litigants from attempting to represent
the interests of others. See, e.g., National Independent
Theater Exhibitors, Inc., v. Buena Vista Distribution
Co., 748 F.2d 602 (11th Cir. 1984) (a pro se litigant
cannot represent a corporation even if they are the only
shareholder); Cheung v. Youth Orchestra Found. of
Buffalo, Inc., 906 F.2d 59 (2d Cir. 1990) (a parent may
not, in a pro se capacity, represent the interests of their
minor child); Eagle Associates v. Bank of Montreal, 926
F.2d 1305 (2d Cir. 1991) (a general partner who is not
an attorney may not represent the partnership).
Essentially, well-established federal law provides that
“an individual who is not licensed as an attorney ‘may
not appear on another person’s behalf in the other’s
cause.’” Machadio v. Apfel, 276 F.3d 103, 106, (2d Cir.
2002), quoting Iannaccone v. Law, 142 F.3d 553, (2d
Cir. 1998) at 142 F.3d 558. Since Ohio law provides
that a wrongful death case must be “brought in the
name of the personal representative of the decedent for
the exclusive benefit of the surviving spouse, the
children, and the parents of the decedent, all of whom

9
are rebuttably presumed to have suffered damages by
reason of the wrongful death, and for the exclusive
benefit of the other next of kin of the decedent.” Ohio
Rev. Code §2125.02. The case brought by the petitioner
is not personal to him, but rather involves the interests
of other beneficiaries of the estate, specifically his
sister. As such, the petitioner cannot proceed on a pro
se basis under 28 U.S.C. § 1654. Pridgen v. Andreson,
113 F.3d 391 (2d Cir. 1997) (“We now hold that an
administratrix or executrix of an estate may not
proceed pro se when the estate has beneficiaries or
creditors other than the litigant.”) 113 F.3d at 393.
The cases cited by the petitioner do not support his
arguments for review by this Court. As noted by the
Ohio Tenth District Court of Appeals and reflected by
the state court complaint, the petitioner is not the only
beneficiary of the estate that he seeks to represent, as
his sister remains a next of kin. This distinction, which
the petitioner has refused to acknowledge since the
inception of this case, was recognized by the cases
referenced in his argument.
For example, Bass v. Leatherwood, 788 F.3d 228 (6th
Cir. 2015), involved efforts by estate fiduciaries to
litigate claims for fraudulent transfer of real estate by
various financial institutions. Unlike the instant
matter, the plaintiffs in Bass were, in fact, the only
beneficiaries of the estates they wished to represent
and thus the only individuals with an interest in the
outcome of the case. The Sixth Circuit held that under
such limited circumstances, where no other persons
were affected, the plaintiffs would be permitted pro se
representation. However, Bass specifically recognized

10
that 28 U.S.C. §1684 did not permit pro se litigants to
appear in federal court in cases that involved the
interests of other people, including estates where other
beneficiaries were present:
Federal law allows parties to “plead and conduct
their own cases personally or by counsel.” 28
U.S.C. §1654. In 1997, the Second Circuit
interpreted this language to impose a barrier on
pro se litigants wishing to appear on behalf of
“another person or entity,” including a
corporation, a partnership, a minor child or “an
estate. . . when the estate has beneficiaries or
creditors other than the litigant.” Pridgen v.
Andresen, 113 F.3d 391, 393 (2d Cir. 1997). The
court reasoned that “appearance pro se denotes
(in law latin) appearance for one’s self,” but
“when an estate has beneficiaries or creditors
other than the administratrix or executrix, the
action cannot be described as the litigant’s own.”
Id. This court adopted the Second Circuit’s
reasoning in Shepherd v. Wellman, 313 F.3d 963
(6th Cir. 2002), prohibiting a litigant from
proceeding pro se “because he is not the sole
beneficiary of the decedent’s estate.” Id. at 970
(citing Pridgen, 113 F.3d at 393).
Bass v. Leatherwood, supra, at 788 F.3d 230. Federal
law continues to prohibit pro se representation by a
non-attorney administrator or executor in
circumstances in which other people have an interest
in the matter. See, e.g., Jones ex rel. Jones v.
Correctional Medical Services, Inc., 401 F.3d 950 (8th
Cir. 2005) (holding that an estate administrator was

11
prohibited from pro se representation in a medical
malpractice case based on Arkansas law where other
beneficiaries existed.)
A second case cited by the petitioner, Rodgers v.
Lancaster Police and Fire Dept., 819 F.3d 205 (5th Cir.
2016) likewise provides no support for his arguments
and dictates against review of this case by this Court.
In Rodgers, where federal question jurisdiction was
present through claims based on violation of 42 U.S.C.
§1983, the court declined to permit the plaintiff, a nonattorney, to represent the estate of her deceased son
until the District Court determined on remand whether
she was the sole statutory beneficiary. Despite the
petitioner’s erroneous assertions to the contrary, that
question has been determined in the case sub judice by
the presence of his sister, who is identified in the
original state court complaint. Resp. App. 7. In Guest
v. Hansen, 603 F.3d 15, (2d Cir. 2010), a third case
cited by the petitioner, the court held “that an
administrator can proceed pro se where an estate has
neither creditors nor beneficiaries other than the
administrator.” 603 F.3d at 17. Barbara Elizabeth Lusk
Proctor, the sister of the petitioner, renders the Guest
case inapplicable.
The rule against pro se representation where the
interests of others are at stake is well-reasoned and
established in the jurisprudence of both state and
federal law, and does not warrant review by this Court.
The expansion of the ability to proceed pro se that is
urged by the petitioner should be rejected since it is
contrary to established law and on the basis of concerns
expressed by the Second Circuit:

12
The reasons for requiring that an attorney
appear are thoroughly discussed in the above
cases. In summary, they are principally that the
conduct of litigation by a nonlawyer creates
unusual burdens not only for the party he
represents but as well for his adversaries and
the court. The lay litigant frequently brings
pleadings that are awkwardly drafted, motions
that are inarticulately presented, proceedings
that are needlessly multiplicative. In addition to
lacking the professional skills of a lawyer, the
lay litigant lacks many of the attorney’s ethical
responsibilities, e.g. to avoid litigating
unfounded or vexatious claims. See Model Code
of Professional Responsibility, DR 7-102 (A)
(1&2) (1976).
Jones v. Niagara Frontier Transportation Auth., 722
F.2d 20 (2d Cir. 1983) at 722 F.2d 22.
III.

The decision of the Supreme Court of Ohio
rests on adequate state grounds that
preclude granting of the petition for writ of
certiorari.

Prior proceedings in this case were confined to the
state courts of Ohio. The decision of the Tenth District
Court of Appeals of Franklin County, which was left
undisturbed when the Supreme Court of Ohio declined
discretionary jurisdiction, was based entirely on state
law grounds. Assuming only for purpose of argument
that the case involved any type of federal issue, the
decisions of the state courts were based on adequate
state grounds that preclude granting of the writ sought
by the petitioner.

13
This court is precluded from exercising review of a
question of federal law that is decided by a state court,
provided that the decision of the court “. . . rests on a
state law ground that is independent of the federal
question and adequate to support the judgment.”
Coleman v. Thompson, 501 U.S. 722 (1991), at 501 US
729, citing Fox Film Corp. v. Muller, 296 U.S. 207
(1935). To the extent that the Ohio courts considered
that the petitioner had a right to self-representation in
state court under 28 U.S.C. §1654, their ultimate
decisions were based upon Ohio law that was clearly
sufficient to support their findings. In lower court
proceedings, the petitioner never claimed that R.C.
§4705.01 was repugnant to the federal constitution,
and he is prohibited from presenting such an argument
at this stage. R.C. §4705.01 remains a valid and
constitutionally sound exercise of the power of the state
of Ohio, and was an adequate and independent basis
for the lower court decisions.
CONCLUSION
The petition should be denied. This Court lacks
subject matter jurisdiction where the issue on appeal
involves denial, under state law, of the plaintiff’s
efforts to pursue pro se litigation on behalf of an estate
with multiple beneficiaries. 28 U.S.C. §1654 does not
apply in the courts of Ohio, does not confer federal
subject matter jurisdiction in a case that commenced
and proceeded exclusively in state court, and in any
event does not permit the plaintiff to represent, pro se,
an estate with multiple beneficiaries. No federal
question or constitutional issue is present in this case.

14
Respectfully submitted,
Frederick A. Sewards
Counsel of Record
POLING LAW
300 E. Broad St., Ste. 350
Columbus, OH 43215
(614) 737-2900
fsewards@poling-law.com
Counsel for Respondents
Central Ohio Hospitalists, Inc.
dba MedOne Physicians, Daniel
L. Miller, M.D and Brian K.
Pulliam, C.N.P.

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix 1 Complaint in the Court of Common
Pleas of Franklin County, Ohio
(April 6, 2018) . . . . . . . . . . . . . . . . App. 1
Appendix 2 Plaintiff’s Objections to 10 July 2018
Court Decision in the Court of
Common Pleas of Franklin County,
Ohio
(July 11, 2018) . . . . . . . . . . . . . . App. 14

App. 1

APPENDIX 1
IN THE COURT OF COMMON PLEAS
OF FRANKLIN COUNTY, OHIO
Case Number:
Judge
[Filed April 6, 2018]
_____________________________________________
Jeffrey Wills Lusk, Individually and as
)
Executor of the Estate of
)
Dorothy Jean Ross Lusk, Deceased
)
5219 Heathmoor Street
)
Columbus, Ohio 43235
)
Plaintiff
)
)
v.
)
)
Crown Pointe Care Center
)
(Unregistered Fictitious Name)
)
1850 Crown Park Court
)
Columbus, Ohio 43235
)
)
and
)
)
SHCP Franklin, Inc. d/b/a
)
Crown Pointe Care Center
)
(Unregistered Fictitious Name) c/o
)
Ohio Agent Solutions, Inc.
)
25000 Country Club Boulevard (Suite 255)
)
North Olmsted, Ohio 44070
)

App. 2
and
Foundations Health Solutions, Inc. d/b/a
Provider Services, Inc. c/o
Ohio Agent Solutions, Inc.
25000 Country Club Boulevard (Suite 255)
North Olmsted, Ohio 44070
and
Atlas Healthcare Solutions, Inc. c/o
Michael K. Provenza, Esq.
25000 Country Club Boulevard (Suite 255)
North Olmsted, Ohio 44070
and
Central Ohio Hospitalists, Inc. d/b/a
MedOne Hospital Physicians c/o
Taft Service Solutions Corp.
425 Walnut Street (Suite 1800)
Cincinnati, Ohio 45202
and
Daniel Lawrence Miller, M.D. c/o
Central Ohio Hospitalists, Inc. d/b/a
MedOne Hospital Physicians
3525 Olentangy River Road (Suite 4330)
Columbus, Ohio 43214
and

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 3
Brian Kenneth Pulliam, C.N.P. c/o
Central Ohio Hospitalists, Inc. d/b/a
MedOne Hospital Physicians
3525 Olentangy River Road (Suite 4330)
Columbus, Ohio 43214

)
)
)
)
)
)
and
)
)
Christa King, N.H.A. c/o
)
Crown Pointe Care Center
)
(Unregistered Fictitious Name)
)
1850 Crown Park Court
)
Columbus, Ohio 43235
)
)
and
)
)
Lynn Marie Gutridge, R.N. c/o
)
Crown Pointe Care Center
)
(Unregistered Fictitious Name)
)
1850 Crown Park Court
)
Columbus, Ohio 43235
)
)
and
)
)
John Does 1-10 Inclusive
)
Defendants Whose Names Are
)
Unknown To Plaintiff At This Time
)
)
Defendants
)
____________________________________________ )

App. 4
COMPLAINT
Jury Demand Endorsed Hereon
(Affidavits Attached)
Now comes Plaintiff Jeffrey Wills Lusk, Individually
and as Executor of the Estate of Dorothy Jean Ross
Lusk, Deceased, and for his Complaint against
Defendants, pursuant to O.R.C. 2125 et seq., O.R.C.
313.19, O.R.C. 2921.22, Kaler v. St. Joseph Hospital
(1982), 69 Ohio St.2d 477, and Carte v. The Manor at
Whitehall, 2014-Ohio-5670, and states as follows:
First Claim
1. At all times relevant hereto, Defendants John
Does 1-10, inclusive, are persons and/or entities whose
names and addresses Plaintiff does not know and has
been unable to presently ascertain, but are people
and/or entities who provided common and ordinary
living assistance and/or Long-Term Care and/or were
responsible for supervising the people and/or entities
who provided common and ordinary living assistance
and/or Long-Term Care for Dorothy Jean Ross Lusk,
Deceased. Defendants John Does 1-10, inclusive,
presently unnamed, will in no way be prejudiced in the
maintenance of their defense on the merits within the
meaning of Civ.R.15(D) because of their constructive or
actual notice of the institution of this Case.
2. Plaintiff was appointed Executor of the Estate of
Dorothy Jean Ross Lusk, Deceased, by the Franklin
County Probate Court on 13 September 2016 in Case
No. 580770. He brings this wrongful death action as
personal representative for the exclusive benefit of the

App. 5
surviving children, and other next of kin of the
deceased.
3. On 5 April 5 2016, Dorothy Jean Ross Lusk,
Deceased, was a resident at the extended care facility
(ECF) located at 1850 Crown Park Court, Columbus,
Ohio 43235, known as Crown Pointe Care Center
(CROWN), and one or more of Defendants, by their
common ordinary negligence, gross negligence,
wantonness, abuse and neglect caused an accident that
resulted in a trauma acute impact fracture injury to
Dorothy Jean Ross Lusk’s left humeral bone driving
that bone 15 mm (0.6 in) into itself, by allowing her to
fall through no fault of her own. Defendants allowed
the fall by failing to provide appropriate fall
preventative measures and precautions of a common
and ordinary nature. Defendants actions and
omissions, violated both Ohio and Federal laws
governing the care of elderly residents, and because
none of the Defendants reported the fall, all are in
violation of O.R.C. 2921.22 for failure to report a crime
or knowledge of a death or burn injury.
4. Defendants took on the responsibility of providing
common and ordinary living assistance and/or LongTerm Care for Dorothy Jean Ross Lusk, but failed to
make appropriate common and ordinary differential
decisions and failed to administer common and
ordinary care to Dorothy Jean Ross Lusk.
5. Jeffrey Wills Lusk states that the common and
ordinary living assistance and/or Long-Term Care
Defendants provided his Mother, Dorothy Jean Ross
Lusk, fell below acceptable standards of common and
ordinary living assistance and/or Long-Term Care, and

App. 6
that said Defendants were negligent in a common and
ordinary manor.
6. As a direct and proximate result of the common and
ordinary negligence of Defendants, Plaintiff Dorothy
Jean Ross Lusk fell on 5 April 2016 causing permanent
injuries, including but not limited to a trauma acute
impact fracture of left humeral bone with a degree of
impaction of 15 mm (0.6 in), great pain and suffering,
a loss of ability to perform her usual activities, and
death. She also incurred other damages and losses.
7. By reason of their common and ordinary negligent
acts and/or omissions, Defendants, their agents,
representatives, servants and/or employees, in the
course and scope of their agency or employment,
breached their duty of care to Plaintiff Dorothy Jean
Ross Lusk, by failing to exercise the appropriate degree
of skill, care, and diligence in providing Dorothy Jean
Ross Lusk with common and ordinary living assistance
and/or Long-Term Care ordinarily used by personnel in
like and similar circumstances resulting in Dorothy
Jean Ross Lusk sustaining a trauma acute impact
fracture of left humeral bone with a degree of
impaction of 15 mm (0.6 in) and eventual death.
8. As a direct and proximate result of the Defendants’
common and ordinary negligence, Plaintiff Dorothy
Jean Ross Lusk was caused to incur great pain and
suffering, disability, pain of body and mind, loss of
enjoyment of life, mental anguish, and was otherwise
injured.
9. Dorothy Jean Ross Lusk, age 96, died on 11 April
2016, as a result of the permanent injury sustained in

App. 7
said accident, and Defendants attempted to prevent
Jeffrey Wills Lusk from reporting said death to the
Franklin County Ohio Coroner, and in so doing all are
in violation of O.R.C. 2921.22 for a second offense of
same.
10. Dorothy Jean Ross Lusk was survived by her
children, Barbara Elizabeth Lusk Proctor and Jeffrey
Wills Lusk, of which Jeffrey Wills Lusk is the sole
beneficiary of this action.
11. Decedent’s beneficiary suffered damages for loss of
her services over the time she could have been expected
to live.
12. Decedent’s beneficiary suffered damages for the loss
of her society over her life expectancy, including loss of
companionship, care, assistance, attention, protection,
advice, guidance, counsel, instruction, training, and
education.
13. Decedent’s beneficiary suffered damages for the
mental anguish caused by her death.
14. Reasonable funeral and burial expenses in the
amount of $11,380.65 have been incurred.
Second Claim
15. As Executor of the Estate of Dorothy Jean Ross
Lusk, Deceased, Plaintiff brings this action for the
injuries and damages to Dorothy Jean Ross Lusk prior
to her death for the benefit of the Estate of Dorothy
Jean Ross Lusk.
16. Plaintiff incorporates the allegations of the First
Claim for relief.

App. 8
17. At all times pertinent hereto, Plaintiff Dorothy
Jean Ross Lusk was a resident as defined by O.R.C.
3721.10.
18. At all times pertinent hereto, Defendants’ ECF was
a home as defined by O.R.C. 3710.01.
19. The Defendants’ actions, inaction, and common
ordinary neglect in the care provided Plaintiff Dorothy
Jean Ross Lusk was a violation of Plaintiff’s rights as
set forth in O.R.C. 3721.13.
20. The Defendants’ actions, inaction, and common
ordinary neglect in the care provided Plaintiff Dorothy
Jean Ross Lusk were violations of 42 C.F.R. 483 et seq.
21. As a direct and proximal result of Defendants’
violation of O.R.C. 3721.13 and 42 C.F.R. 483 et seq.,
Plaintiff Dorothy Jean Ross Lusk suffered pain and
suffering, emotional distress, and other significant
permanent injuries to her person and well-being.
22. As a result of the accident, Dorothy Jean Ross Lusk
suffered a trauma acute impact fracture injury to her
left humeral bone driving that bone 15 mm (0.6 in) into
itself. Her injury was permanent and resulted in her
death on 11 April 2016.
Third Claim
23. Plaintiff incorporates the allegations of the First
Claim and Second Claim for relief.
24. Defendants’ conduct of improperly caring for
Plaintiff Dorothy Jean Ross Lusk demonstrates actual
malice and egregious fraud including conscious
disregard for the rights and safety of Plaintiff Dorothy

App. 9
Jean Ross Lusk, which constituted a great probability
of causing substantial harm and did so cause
substantial harm.
Fourth Claim
25. As Executor of the Estate of Dorothy Jean Ross
Lusk, Deceased, Plaintiff brings this action for punitive
damages and costs pursuant to O.R.C. 3721.10 et seq.
for the willful, wanton, and reckless conduct by
Defendants to cover-up the accident that caused the
injuries and damages to Dorothy Jean Ross Lusk,
Deceased, demonstrating Defendants were indifferent
to the rights and safety of Dorothy Jean Ross Lusk,
Deceased.
26. Plaintiff also seeks punitive damages under Ohio’s
nursing home laws for the following: Defendants’
deliberate cover-up and concealment of the injury to
Plaintiff Dorothy Jean Ross Lusk; the indifference
displayed for the right and safety of others and the
Defendants’ employee conduct surrounding the injury;
failure to report the injury to appropriate State
authorities; violation of Ohio and Federal laws
governing care of the elderly that permit the imposition
of punitive damages; and to punish the wrongful
conduct of Defendants and to deter Defendants and
other similarly situated providers from engaging in
such conduct in the future.
27. Plaintiff incorporates the allegations of the First
Claim, Second Claim, and Third Claim for relief.
28. Plaintiff Jeffrey Wills Lusk states he is the duly
appointed Executor of the Estate of Dorothy Jean Ross
Lusk, who died on 11 April 2016, leaving the heirs at

App. 10
law and/or next of kin surviving her each of whom had
a pecuniary or other interest in her life, and this action
is brought on their behalf under the statutes of Ohio
including, but not limited to, O.R.C. 2125.02, and
further states that by reason of Decedent Dorothy Jean
Ross Lusk’s wrongful death, the Decedent’s statutory
beneficiary has been damaged, deprived of her society
and companionship, suffered loss of future services, a
loss of love and affection, severe mental anguish and
emotional distress, and has sustained pecuniary losses,
including but not limited to, funeral and burial
expenses.
29. Said Defendants negligently, recklessly and/or
willfully and wantonly failed to use that degree of care,
skill, and diligence in providing Dorothy Jean Ross
Lusk, Deceased, with proper and appropriate common
and ordinary living assistance and/or Long-Term Care
ordinarily used by personnel in like and similar
circumstances, which ultimately resulted in the death
of Dorothy Jean Ross Lusk.
30. Said Defendants were negligent, reckless and/or
willful and wanton in their common and ordinary living
assistance and/or Long-Term Care of Dorothy Jean
Ross Lusk, and as a direct and proximate result of
their negligence, Dorothy Jean Ross Lusk failed to
receive the necessary care and, as a consequence, lost
her life on 11 April 2016.
31. At the time of her death, Dorothy Jean Ross Lusk
was not provided and/or afforded the opportunity to
live the rest of her natural life, nor to continue to
experience the opportunity to bond with and love her
heirs at law and next of kin now and in the future, and

App. 11
that by reason of the wrongful death of Dorothy Jean
Ross Lusk, her heirs at law and surviving next of kin
have suffered severe mental anguish and emotional
distress, a loss of her society and companionship, and
pecuniary losses.
32. At all times material to the present cause of action,
Plaintiff Dorothy Jean Ross Lusk was a resident of
CROWN.
33. As a nursing home resident, each Defendant in this
action owed a duty to Decedent Plaintiff Dorothy Jean
Ross Lusk to provide a safe living environment and to
provide her with adequate and appropriate common
and ordinary care.
34. As a nursing home resident Plaintiff Dorothy Jean
Ross Lusk had the right to a safe living environment
and the right to adequate and appropriate common and
ordinary care.
35. Each Defendant in this action breached their duty
to Plaintiff Dorothy Jean Ross Lusk by failing to
provide a safe living environment and by failing to
provide adequate and appropriate common and
ordinary care.
36. Defendants’ conduct, acts and/or omissions
constitute a statutory violation of Plaintiff Dorothy
Jean Ross Lusk’s rights pursuant to O.R.C. 3721.10 et
seq.
37. Pursuant to statute, the violation of Plaintiff
Dorothy Jean Ross Lusk’s rights, as set forth above,
permit Plaintiff to recover punitive damages and costs
from Defendants.

App. 12
WHEREFORE, Plaintiff Jeffrey Wills Lusk,
Individually and as Executor of the Estate of Dorothy
Jean Ross Lusk demands judgment against Defendants
on his First Claim for relief, jointly and severally, in an
amount which exceeds Twenty-Five Thousand Dollars
($25,000.00), together with interest and the costs of
this action.
WHEREFORE, Plaintiff Jeffrey Wills Lusk,
Individually and as Executor of the Estate of Dorothy
Jean Ross Lusk demands judgment against Defendants
on his Second Claim for relief, jointly and severally, in
an amount which exceeds Twenty-Five Thousand
Dollars ($25,000.00), together with interest and the
costs of this action.
WHEREFORE, as a direct and proximate result of the
wrongful and malicious conduct of the Defendants,
Plaintiff Dorothy Jean Ross Lusk was caused to incur
great pain and suffering and disability. Plaintiff Jeffrey
Wills Lusk, Individually and as Executor of the Estate
of Dorothy Jean Ross Lusk demands judgment against
Defendants on his Third Claim for relief, jointly and
severally, in an amount which exceeds Twenty-Five
Thousand Dollars ($25,000.00), together with interest
and the costs of this action.
WHEREFORE, Plaintiff Jeffrey Wills Lusk,
Individually and as Executor of the Estate of Dorothy
Jean Ross Lusk demands judgment against the
Defendants on his Fourth Claim for relief, jointly and
severally, in an amount which exceeds Twenty-Five
Thousand Dollars ($25,000.00), together with interest
and the costs of this action.

App. 13
Respectfully submitted,
/s/ Jeffrey Wills Lusk
Jeffrey Wills Lusk, Individually and as
Executor of the Estate of
Dorothy Jean Ross Lusk, Deceased
5219 Heathmoor Street
Columbus, Ohio 43235
(614) 558-0072
pro se
JURY DEMAND
Plaintiff Demands a Trial by a Jury of Eight
/s/ Jeffrey Wills Lusk
Jeffrey Wills Lusk, Individually and as
Executor of the Estate of
Dorothy Jean Ross Lusk, Deceased
pro se

App. 14

APPENDIX 2
IN THE COURT OF COMMON PLEAS
OF FRANKLIN COUNTY, OHIO
Case Number: 18CV-04-2941
Judge David Charles Young
[Filed July 11, 2018]
_______________________________________
Jeffrey Wills Lusk, Individually and as )
Executor of the Estate of
)
Dorothy Jean Ross Lusk, Deceased
)
Plaintiff
)
)
v.
)
)
Crown Pointe Care Center et al.
)
Defendants
)
______________________________________ )
PLAINTIFF’S OBJECTIONS TO 10 JULY 2018
COURT DECISION
Comes now Jeffrey Wills Lusk (“Plaintiff”) for his
Objections to this Court’s Decision issued and entered
10 July 2018.
Failure to Covert Motions to Dismiss to
Motions for Summary Judgment
Defendant Objects to this Court not converting
Defendant’s Motions to Dismiss to Motions for
Summary Judgment, because Plaintiff’s Pleadings

App. 15
offered documents and evidence outside of the
pleadings, which turns the Motions to Dismiss into
Motions for Summary Judgment pursuant to Schuh v.
Mora, 95APE09-1259 (10th Dist. Ct. App., Franklin Feb.
13, 1996) (Ohio App. LEXIS 553), and State, ex rel.
Keller v. Cox, 5 Ohio St. 3d 279, 707 NE2d 931 (1999).
Plaintiff is the only Real Party in Interest and
Sole Beneficiary of Estate
Plaintiff Objects to this Court concluding Plaintiff
attempts to represent interests other than his own
against the facts and evidence on the Record. The
Record reflects Plaintiff is the Sole Beneficiary of the
Estate (no creditors), and no next of kin exist besides
Plaintiff. The spouse is deceased, no minor children
exist, and the parents are deceased Only minor
children are presumed to have suffered from the loss of
a parent. Ohio limits Statutory beneficiaries to spouse,
minor children, and parents. This Court erroneously
combined Wrongful Death and Survival Claims to give
the appearance Plaintiff attempts to represent multiple
interests other than his own. Representing the Estate
beneficiaries for Survival Claims is separate from
representing Statutory beneficiaries for Wrongful
Death Claims. Plaintiff is the only Real Party in
interest to both and can represent both separately in
one action, which is required by statute. Plaintiff
further Objects to this Court’s abuse of its discretion to
not allow Plaintiff to attempt to retain counsel based
upon its erroneous conclusion Plaintiff is attempting to
represent interests other than his own. No other
similar Cases have not allowed Plaintiff to attempt to
retain counsel.

App. 16
Plaintiff’s Survivorship Claims are not TimeBarred by Statutes of Limitations
Plaintiff Objects to this Court erroneously concluding
Plaintiff’s Survivorship Claims are time-barred by
Statutes of Limitations. Medical Malpractice statute of
limitations do not apply to Wrongful Death Claims
pursuant to Ohio Supreme Court’s Decision in Koler v.
St. Joseph Hospital (1982), 69 Ohio St.2d 477, the
statute of limitations for malpractice by a physician or
hospital in O.R.C. 2305.11(A) does not apply to Ohio
Wrongful Death actions. As Koler states:
“The statute of limitations contained in O.R.C.
2305.11(A) is limited to the areas specifically
enumerated therein and to the common law definition
of ‘malpractice.’”
Ohio Wrongful Death law is at statute, not common
law. A full reading of Koler is sufficient to establish the
statute of limitations for malpractice by a physician
does not time-barr Plaintiff’s Survivorship Claims, in
addition to the fact Plaintiff averred no malpractice
claims. Plaintiff Objects to this Court’s erroneous
conclusion Plaintiff’s Survivorship Claims are timebarred by the statute of limitations for O.R.C.
2305.10(A). This Court failed to apply the two-pronged
rule requiring both prongs to be satisfied before the
statute of limitations begins to run. The Supreme
Court of Ohio in O’Stricker v. Jim Walter Corp. (1983),
4 Ohio St.3d 84 states:
“When an injury does not manifest itself immediately,
the cause of action does not arise until the plaintiff
knows or, by the exercise of reasonable diligence should

App. 17
have known, that he had been injured by the conduct
of defendant, for purposes of the statute of limitations
contained in R.C. 2305.10.”
In Viock v. Stowe-Woodward Co., 13 Ohio App. 3d 7
(1983) the Court states:
This “discovery rule,” as articulated by the Supreme
Court in O’Stricker, supra, is a two-pronged rule
requiring both prongs to be satisfied before the statute
of limitations begins to run. First, a plaintiff must
know or reasonably should have known that he has
been injured; and second, a plaintiff must know or
reasonably should have known that his injury was
proximately caused by conduct of the defendant.
Upon actual knowledge or reasonable cause shown to
have knowledge of these factors imputed as a matter of
law, the limitation period in O.R.C. 2305.10 begins to
run. This articulation of the “discovery rule,” we note,
is consistent, congruent, and harmonious with
articulations in other jurisdictions which have adopted
and applied the discovery rule. See, e.g., Schiele v.
Hobart Corp. (Ore. 1978), 587 P.2d 1010, 1014 (“The
statute of limitations begins to run when a reasonably
prudent person associates his symptoms with a serious
or permanent condition and at the same time
perceives the role which the defendant has
played in inducing that condition.”); Nolan v. JohnsManville Asbestos & Magnesia Materials Co. (Ill. App.
1979), 392 N.E.2d 1352, 1359 (“* * * the statute of
limitations commences when the injured party
discovers or should reasonably have discovered not only
the nature of the affliction but also that it was
wrongfully caused.

App. 18
Plaintiff knew his Mother was injured April 5, 2016,
but did not know the Defendants caused the injury
until the Franklin County Coroner’s Report was issued
July 12, 2016, which is the second prong that
completed the two-prong rule which triggered the
statute of limitations to begin running.
This Court clearly based its Decision and Rulings only
upon the unsupported conclusions of Defendant’s
Motions to Dismiss, rather than at the same time
considering Plaintiff’s Record and applicable laws. This
Court’s findings of fact and conclusions of law are not
sufficient to support Defendant’s Motions to Dismiss
pursuant to Thomas v Jackson Hewitt, Inc., 2011 OH
618, 950 NE2d 578 (Ohio App).
Court Copied Defendants’ Mistake Identifying
Plaintiff as “Administrator” and Appears to
have made ex parte Communication with
Counsel for Defendants
This Court identified Plaintiff in the Caption as
“Administrator” instead of “Executor”, which was
originally a mistake by attorney Poling, not attorney
Auciello. Plaintiff Objects to the appearance of ex parte
communication between this Court and attorney
Poling, as evidenced by this copied mistake and the Email, attached as Ex. A, sent from attorney Cook to
Staff Attorney Megan Shultz at 12:43 p.m. 10 July
2018. This Court issued and entered its Decision at
3:46 p.m. 10 July 2018, just about three hours later.
Plaintiff objects to attorney Cook, an attorney who has
never made an appearance, communicating ex parte
with this Court’s Staff Attorney.

App. 19
Respectfully submitted,
/s/ Jeffrey Wills Lusk
Jeffrey Wills Lusk, Individually and as
Executor of the Estate of
Dorothy Jean Ross Lusk, Deceased
5219 Heathmoor Street
Columbus, Ohio 43235
(614) 558-0072
jeffreylexus@aol.com
Plaintiff
pro se
CERTIFICATE OF SERVICE
Plaintiff served the foregoing Objections on Brant Eric
Poling, address listed below, attorney for Defendants,
MedOne Defendants, and Ernest W. Auciello, Jr.,
address listed below, attorney for Defendants, Crown
Pointe Defendants via eFlex on 11 July 2018.
/s/ Jeffrey Wills Lusk
Jeffrey Wills Lusk, Individually and as
Executor of the Estate of
Dorothy Jean Ross Lusk, Deceased
Plaintiff
pro se
Ernest W. Auciello, Jr.
Tucker Ellis LLP
950 Main Avenue (Suite 1100)
Cleveland, Ohio 44113

App. 20
Brant Eric Poling
Poling Law
300 East Broad Street (Suite 350)
Columbus, Ohio 43215

App. 21
Ex. A
(follows)
From:

Laura Cook <lcook@poling-law.com>

To:

Megan_Schultz
<Megan_Schultz@fccourts.org>

Cc:

Brant Poling <bpoling@poling-law.com>;
jeffreylexus <jeffreylexus@aol.com>;
Mindi Schaefer
<MSchaefer@poling-law.com>;
ernest.auciello
<ernest.auciello@tuckerellis.com>;
Laura Cook <lcook@poling-law.com>

Subject: Lusk v Crowne Pointe et al # 18 CV 002941
Date:
Tue, Jul 10, 2018 12:43 pm
__________________________________________________
Megan,
I’m writing to request a status conference in this case
regarding the issues raised in the Defendants’ motions
to dismiss.
Please let me know if that can be arranged soon,
thanks,
Laura
Laura Folkerth Cook
Attorney
Columbus 614.737.2919 | Mobile 614.581.7876
poling-law.com
COLUMBUS, OH – DAYTON, OH – FAIRFAX, VA
***

